APPENDIX TABLE OF CONTENTS
Order of the United States Court of Appeals for
the Second Circuit (October 23, 2019).............. la
Judgment of the United States District Court
Southern District of New York
(April 24, 2019)................................. ...........

3a

Order of the United States District Court
Southern District of New York
(April 23, 2019).....................................

4a

Motion for Extension of Time to File Notice of
Appeal (June 19, 2019)................................ .

9a

Affidavit of Austin Taylor
(November 5, 2018) ...

11a

Reply Affidavit of Sean A. Clark
(April 23, 2014).....................

13a

Letter from Pete R. Juezan
(September 29, 1998)....

16a

App.la

ORDER OF THE UNITED STATES COURT OF
APPEALS FOR THE SECOND CIRCUIT
(OCTOBER 23, 2019)
IN THE UNITED STATES COURT OF APPEALS
FOR THE SECOND CIRCUIT
SEAN A. CLARK,
Plaintiff-Appellant,
v.
COMMISSIONER OF SOCIAL SERVICES,
Defendant-Appellee.
No. 19-1823
Before: Robert A. KATZMANN, Chief Judge,
Denny CHIN, Christopher F. DRONEY,
Circuit Judges.
Appellant, pro se, moves for “expedited relief.”
However, this Court has determined sua sponte that the
notice of appeal was untimely filed. Upon due conside­
ration, it is hereby ORDERED that the appeal is DIS­
MISSED for lack of jurisdiction. See 28 U.S.C. § 2107;
Bowles v. Russell, 551 U.S. 205,214 (2007). It is further
ORDERED that Appellant’s motion is DENIED as moot.

App.2a
FOR THE COURT:
/s/ Catherine O’Hagan Wolfe
Clerk of Court

App.3a

JUDGMENT OF THE UNITED STATES
DISTRICT COURT SOUTHERN
DISTRICT OF NEW YORK
(APRIL 24, 2019)
UNITED STATES DISTRICT COURT
SOUTHERN DISTRICT OF NEW YORK
SEAN A. CLARK,
Plaintiff,
v.
STATE COMMISSIONER OF
SOCIAL SERVICE DEPARTMENT,
Defendant.
No. 18 Civil 10038 (LAP)
It is hereby ORDERED, ADJUDGED AND
DECREED: That for the reasons stated in the Court’s
Order dated April 23, 2019, Plaintiffs motion for a
default judgment is denied; Defendant's motion to
dismiss is granted, accordingly, this case is closed.
Ruby J. Kraiick__________
Clerk of Court
[Signature not legiblel
Deputy Clerk
Dated: New York, New York
April 24, 2019

App.4a

ORDER OF THE UNITED STATES
DISTRICT COURT SOUTHERN
DISTRICT OF NEW YORK
(APRIL 23, 2019)
UNITED STATES DISTRICT COURT
SOUTHERN DISTRICT OF NEW YORK
SEAN A. CLARK,
Plaintiff,
v.
STATE COMMISSIONER OF
SOCIAL SERVICE DEPARTMENT,
Defendant.
No. 18 Civ. 10038 (LAP)
Before: Loretta A. PRESKA,
Senior United States District Judge.
LORETTA A. PRESKA, Senior United States District Judge:
Plaintiff Sean Clark (“Plaintiff’) brings this action
against Defendant Office of Temporary and Disability
Assistance! (“Defendant”) for cutting off his benefits
without proper process. Additionally, Plaintiff moves

1 The defendant listed in the case caption is an entity that does
not exist.

App.5a
for an entry of default judgment, which Defendant
opposes. Defendant moves to dismiss.
For the reasons stated below, Plaintiffs motion for
an entry of default is denied, and Defendant’s motion
to dismiss the complaint is granted.
Plaintiff alleges that Defendant discontinued his
public assistance benefits in 2014. (Complaint (“Compl.”),
dated Oct. 31,"2018 [dkt. no. l], at 5, 9). Plaintiff pur­
sued his claims through state avenues, first through
an administrative hearing and then judicially. (Compl.
at 5). Plaintiff petitioned New York State Supreme
Court pursuant to C.P.L.R. Article 78, and the case was
transferred to the Appellate Division, First Department.
(Declaration of Cara Chomski (“Chomski Decl.”),
dated Jan. 11, 2019 [dkt. no. 19], Ex. F). On October
30, 2018, the Appellate Division, First Department dis­
missed the proceeding. (Chomski Decl. Ex. H).
Plaintiff asserts that this denial violates the
Americans with Disabilities Act, the Fourteenth
Amendment, 18 U.S.C. § 1028, 18 U.S.C. § 1030, 18
U.S.C. Chapter 47, N.Y. Penal Law Article 158, and
Articles 2-16 of the International Covenant on Civil
and Political Rights,
With respect to his motion for a default judgment,
Plaintiff claims that he served Defendant on November
5, 2018. (Motion For Default Judgement Entry (“Jud.
Mot.”), dated Dec. 18, 2018 [dkt. no. 8], at l). He
argues that Defendant’s failure to respond within
thirty days entitles him to a default judgment. (Id.)
To survive a motion to dismiss under Rule 12(b)(6),
the plaintiff must plead enough facts “to ‘state a
claim to relief that is plausible on its face.’“ Ashcroft
v. Iqbal, 556 U.S. 662, 663 (2009) (quoting Bell Atl.

App.6a

Corp. v. Twombly; 550 U.S. 544, 570 (2007)). A court
must accept all well-pleaded facts as true and must
draw all reasonable inferences in favor of the plaintiff.
Twombly, 550 U.S. at 570. But the court is not bound
to accept as true legal conclusions that are couched
as factual allegations. Iqbal, 556 U.S. at 678.
A pro se plaintiffs claims must be construed libe­
rally and interpreted to raise the strongest arguments
they suggest. Triestm an v. Fed. Bureau ofPrisons, 470
F.3d 471, 474 (2d Cir. 2006).
On the default judgment motion, Defendant was
not properly served until November 30, 2018, contrary
to Plaintiffs assertion. (Declaration of Stephanie
Snyder In Support Of Defendant’s Letter Motion For
Extension Of Time, dated Dec. 18, 2018 [dkt. no. 11l], at If 4). Plaintiff says that he served an individual
paralegal at the “Albany County Department of Law,”
which is not one of the two locations Defendant has
designated for service of process. Plaintiff counters,
“ [i] f it wasn’t the correct address the document would
have never been Notarized for service.” (Memorandum
Of Law In Opposition of Defendant Motion To Dismiss
Default Judgement, dated Jan. 9, 2019 [dkt. no. 16],
at 9). This is wrong because notarizing a process doc­
ument does not speak to any legal conclusions about
designated locations for service of process. Further,
Plaintiff refers to the “State Commissioner [of] Social
Services” as being relevant for the correct location for
the service of process; such an entity does not exist.
(Id)
With respect to the motion to dismiss, the Eleventh
Amendment says, “[t]he Judicial power of the United
States shall not be construed to extend to any suit in
law or equity, commenced or prosecuted against one

App.7a

of the United States by Citizens of another State, or
by Citizens or Subjects of any Foreign State.” U.S.
Const, amend. XI. The Amendment bars suits that seek
either “money damages... or injunctive relief.”
McGinty v. New York, 251 F.3d 84, 91 (2d Cir. 2001).
Plaintiffs claim is for $600 trillion in damages for
pain and suffering. (Compl. at 6). “[S]uits against states
and their officials seeking damages for past injuries are
firmly foreclosed by the Eleventh Amendment.” Ward
v. Thomas, 207 F.3d 114, 119 (2d Cir. 2000). This is a
suit against a state seeking damages for past injuries
and is therefore firmly foreclosed by the Eleventh
Amendment as no relevant exception exists, such as
waiver.
Plaintiff counters, “[n]o civilian is barred by the
eleventh amendment in any state under the fourteenth
amendment Section 5” and invokes congressional abro­
gation of state sovereign immunity in the Individuals
with Disabilities Education Act (“IDEA” Act) (Memo­
randum Of Law In Opposition Of Defendant Motion To
Dismiss For False Declaration (“Opp. Mem.”), dated
Feb. 30, 2019 [dkt. no. 30], at 1, 4). Plaintiff does not
bring his claim under the IDEA, so this argument is
unavailing. Plaintiff also cites to New York’s long-arm
statute, C.P.L.R. § 302. (Opp. Mem. at 9). This is equally
unavailing because the statute does not contain any
language expressly waiving sovereign immunity. Coll.
Say. Bank v. Fla. Prepaid Postsecondary Educ. Expense
Bd., 527 U.S. 666, 680 (1999).
As Defendant is entitled to Eleventh Amendment
immunity, this Court lacks jurisdiction. Nat’l R.R.
Passenger Corp. v. McDonald, 779 F.3d 97, 100 (2d Cir.
2015).

App.8a

Additionally, the Rooker-Feldman doctrine pre­
vents this Court from hearing appeals from state court
decisions. Vossbrinck v. Accredited Home Lenders, Inc.,
773 F.3d 423, 426 (2d Cir. 2014). “There are four
requirements for the application of Rooker-Feldman:
(l) the federal-court plaintiff lost in state court; (2)
the plaintiff complains of injuries caused by a state
court judgment; (3) the plaintiff invites .. . review and
rejection of that judgment; and (4) the state judg­
ment was rendered before the district court proceed­
ings commenced.” Id. (alterations omitted). Each of
these requirements is present here. (Compl. at 5-6).
Plaintiff counters that the case is “still officially
open and unsettled.” (Opp. Mem. at 9). This is incorrect.
The state court order says, “the proceeding is dismis­
sed.” (Chomski Decl. Ex. H). Accordingly, the RookerFeldman doctrine bars this Court from hearing this
case.
CONCLUSION
Plaintiffs motion for a default judgment [dkt. no. 8]
is denied. Defendant’s motion to dismiss is granted [dkt.
no. 17]. The Clerk of Court shall terminate the case and
deny all outstanding motions as moot.
The Clerk of the Court shall mail a copy of this
order to Plaintiff.
SO ORDERED.
/si Loretta A. Preska
Senior United States District Judge
Dated: New York, New York
April 23, 2019

App.9a

MOTION FOR EXTENSION OF
TIME TO FILE NOTICE OF APPEAL
(JUNE 19, 2019)
UNITED STATES DISTRICT COURT
SOUTHERN DISTRICT OF NEW YORK
SEAN A. CLARK,
Plaintiff,
v.
STATE COMMISSIONER OF
SOCIAL SERVICE DEPARTMENT,
Defendant.
No. 18-cv-10038 (LAP)
I move under Rule 4(a)(5) of the Federal Rules of
Appellate Procedure for an extension of time to file a
notice of appeal in this action. I would like to appeal
the judgment entered in this action on 4/23/2019 but
did not file a notice of appeal within the required
time period because: 4/23/2019 I was not feeling well
due to my disability. This case pertains to fraud from
index # 400256/2014 and deficiencies in the adminis­
trative record never were corrected per court order #
09-2974 and # 13-866cv.

App.lOa

Name: Clark Sean A
Address: 93 4th Avenue 1172 NY, NY 10003-5213
Telephone: 917-242-2573
E-mail: seantellc_22@yahoo.con
/s/ Sean A. Clark
Dated: 6/19/2019

App.lla

AFFIDAVIT OF AUSTIN TAYLOR
(NOVEMBER 5, 2018)
UNITED STATES DISTRICT COURT FOR THE
SOUTHERN DISTRICT OF NEW YORK
SEAN A. CLARK,
Plaintiff/Petitioner,
v.
STATE COMMISSIONER OF
SOCIAL SERVICE DEPARTMENT,
Defendant/Respondent.
Index No: 18CV10038
The undersigned being duly sworn, deposes and
says; deponent is not a party herein, is over 18 years
of age and resides at PO Box 582, Guilderland, NY
12084. That on Mon, Nov 05 2018 AT 12:45 PM AT
112,State Street Room 600, Albany, NY deponent
served the within Summons in a Civil Action & Com­
plaint-Jury Trial Demanded on STATE COMMIS­
SIONER OF SOCIAL SERVICES DEPARTMENT
V Corporation: STATE COMMISSIONER OF
SOCIAL SERVICE DEPARTMENT a defendant,
therein named, by delivering a true copy of each to
Mary Heffner personally, deponent knew said corpo­
ration so served to be the corporation described, and

App.l2a
knew said individual to be Paralegal, Albany County
Department of Law therfore.
Description
Age: 55
Ethnicity: Caucasian
Gender: Female
Weight: 150
Height: 5’8”
Hair: Bold
/s/ Austin Tavlor
Sworn to before me on 11/15/18

App.lSa

REPLY AFFIDAVIT OF SEAN A. CLARK
(APRIL 23, 2014)
SUPREME COURT OF THE STATE OF
NEW YORK COUNTY OF NEW YORK
SEAN CALRK,
Plaintiff/Petitioner;
v.
STATE COMMISSIONER
SOCIAL SERVICES DEPARTMENT
Defendant/Respondent.
Index Number. 400256/2014
State of New York
County of New York
I Sean Clark (Petitioner), being duly sworn possess
and says:
1. I am the Movant on this matter. I make this
affidavit in reply to the Affidavit Opposition of [name
of the party who opposed your motion Attornev/State
Commissioner and in further support of my application
for an order [briefly described what you requested in
our motion] I was unlawfully discontinued from P.A.
benefit. The local agency [013] from the HRA depart­
ment is aware of my physical disability my physical
disability impairment prevents me from doing any
kind of substantial, sedentary or mental work.

App.l4a
2. [Give your answer to what said in the Affidavit
in Opposition, Add More pages if needed.] Attached
with this affidavit is a 10 page document titled Oppo­
sition Response Stating the Factual reason why I am
unable to work. Also, attached is a affidavit dated
4/7/2014 that states why my case number is not
officially closed on 1/17/2014.1 received two fair hearing
notices dated 3/18/2014 and 3/22/2014 from the state
Department of OTDA. The verified Answer document
submitted by the Attorney/respondent states that I
did not show good cause for missing my work require­
ment appointment However, the Attorney/Respond­
ent also stated that I am exempt from employment
activities. As I stated in my opposition response that
disability law defines a disability as a physical or
mental impairment that substantially limits one or
more of the major life activities of an individual. Also
a record of such an impairment or being regarded as
having such an impairment an individual who has a
record of a physical impairment that substantially
limits a major life activity is within the state even if
that person was previously misclassified as having
such an impairment. Also Attached is a Social Security
disability benefit document for the current year that
was attached to my petition as Exhibit B.
WHEREFORE. I respectfully request that this
motion be granted, and that I have such other and
further relief as may be just and proper.
/s/ Sean A. Clark
Sean A. Clark
Sworn to before me on
April 23, 2014
/s/ Notary Public Signature

App.l5a

Supreme Court of the State of New York
County of New York
60 Centre Street
New York, New York 10007
Date: July 17, 2014
Index No. 400266/2014
CAPTION:
Sean Clark (petitioner)
vs.

State Commissioner of Social Service (Respondent)
Proof of Service
To: Office of County clerk,
I Sean Clark (Petitioner) duly swear or declare
that as requested by the judge’s dated order July 11,
2014 that I have serve a copy of the four page notice
of entry by regular mail to the State Commissioner at;
New York State Office of Temporary and Disability
Assistance, 14 Boerum Place 16th floor, Brooklyn,
New York 11201 and Attorney for State Commissioner
of Social Services at; 120 Broadway 24th floor, New
York, New York 10271.

F 11- E D

Cordially

/s/ Sean Clark
qqukw cajewcs ofw* Petitioner
MEW YQWK

App.l6a

LETTER FROM PETE R. JUEZAN
(SEPTEMBER 29,1998)
COUNTY OF LOS ANGELES
TREASURER AND TAX COLLECTOR
Mark J. Saladino
Treasurer and Tax Collector
Reply To:
Public Administrator Operations
Hall of Records
320 W Temple Street, Ninth Floor
Los Angeles, CA 90012
Telephone (213) 974-0482
Telecopier (213) 613-0159
Mr. Sean Clark
5910 S. Olive Street
Los Angeles, Ca. 90003
Re: Estate of.OSBORNE, WILLIAM, Deceased
We have learned that you may be one of the heirs
of this estate, or that you may have knowledge leading
to the discoveiy of heirs. For purposes which may verify
and establish heirship, please complete the attached
form to the best of your ability. Please return two copies
to us. The third copy is for your records.
GENERAL INSTRUCTIONS
1.

Be sure to put your name on the proper lines.

2.

Please give complete names and addresses,
if possible.

V

App.l7a

3.

If answer is “none” or “unknown”, so
indicate in the space provided.

4.

If additional space is needed, please attach
a separate sheet.

5.

If a person was adopted, please state by
whom and where.

6.

BE SURE TO SIGN THIS AFFIDAVIT IN
THE PRESENCE OF A NOTARY PUBLIC;

When completed, return two copies to: Public
Administrator, 320 W. Temple Street, 9th Floor, Los
Angeles, CA 90012. Your prompt reply will be appre­
ciated.
Very truly yours,
/s/ Pete R. Juezan
Deputy Public Administrator

